               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




          21st Century Post Office:
        Opportunities to Share Excess
                 Resources

               Management Advisory




                                              February 9, 2012


Report Number DA-MA-12-003
                                                                        February 9, 2012

                                                             21st Century Post Office:
                                            Opportunities to Share Excess Resources

                                                         Report Number DA-MA-12-003



IMPACT ON:
U.S. Postal Service Facility                public. While there has been emerging
Management, Post Office Operations,         national consensus to reduce facility
Government Services.                        costs government-wide by consolidating
                                            and co-locating functions, the Postal
WHY THE OIG DID THE AUDIT:                  Service has not yet expanded its
This is part of a series of reports         strategic vision to share surplus capacity
addressing the 21st Century Post Office.    with other government entities.
Our objective was to assess
opportunities for post offices to perform   WHAT THE OIG RECOMMENDED:
transactions for other government           We recommended the vice president,
entities.                                   Delivery and Post Office Operations,
                                            and the vice president, Channel Access,
WHAT THE OIG FOUND:                         develop and implement a strategy to
Post offices nationwide have surplus        share surplus Post Office resources with
space, window, and retail workhour          appropriate federal, state, and municipal
capacity to perform additional              government agencies.
government transactions. OIG estimates
the interior excess space at 24 percent,    WHAT MANAGEMENT SAID:
including 12,356 unmanned or                Management agreed to develop and
underused windows.                          implement a strategy to share surplus
                                            Postal Service resources with
We recognize the Postal Service’s need      appropriate federal agencies. However,
to optimize its network through             they did not agree with part of the
consolidations and closures. However,       recommendation to share resources
with declining federal department           with state and municipal agencies.
budgets, management could use
underused Post Office resources to          AUDITORS’ COMMENTS:
maintain or expand the reach of             Overall management’s comments were
government departments to citizens.         responsive to the recommendation, and
Providing these services could save         corrective actions should resolve the
much needed resources, expand public        issues. It was not our intention to imply
access to government services, and          that the Postal Service has legal
provide revenue to the Postal Service.      authority to offer government services to
                                            state and municipal agencies.
The agencies we researched have
initiatives to expand their access to the   Link to review the entire report
February 9, 2012

MEMORANDUM FOR:            DEAN GRANHOLM
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                           OPERATIONS

                           KELLY M. SIGMON
                           VICE PRESIDENT, CHANNEL ACCESS



                                   E-Signed by Michael A. Magalski
                                   VERIFY authenticity with e-Sign


FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Advisory – 21st Century Post Office:
                           Opportunities to Share Excess Resources
                           (Report Number DA-MA-12-003)

This report presents the results of our review of the opportunities to share excess
Post Office™ resources with other government agencies (Project Number
11YG026DA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique Colter, director,
Facilities, Environmental, and Sustainability, or me at 703-248-2100.

Attachments

cc:   Patrick R. Donahoe
      Ronald A. Stroman
      Paul Vogel
      Megan J. Brennan
      Tom A. Samra
      Susan M. LaChance
      Corporate Audit and Response Management
  st
21 Century Post Office: Opportunities to Share                                                                         DA-MA-12-003
 Excess Resources


                                                  TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Surplus Post Office Resources Exist Nationwide............................................................... 1

Recommendation ................................................................................................................ 2

Management’s Comments .................................................................................................. 2

Evaluation of Management’s Comments ............................................................................ 3

Appendix A: Additional Information..................................................................................... 5

       Background .................................................................................................................... 5

       Objective, Scope, and Methodology ............................................................................. 6

       Prior Audit Coverage ..................................................................................................... 6

Appendix B: Detailed Information ....................................................................................... 7

Surplus Post Office Resources Exist Nationwide............................................................... 7

       Floor Space .................................................................................................................... 7

       Retail Windows .............................................................................................................. 7

       Terminal Workhours ...................................................................................................... 8

       The Postal Service Could Service Government Entities .............................................. 9

       Postmasters Support Marketing Surplus Post Office Resources ................................ 9

       Financing Options ........................................................................................................ 10

       21st Century Post Office Scenarios ............................................................................ 11

Appendix C: Governmental Opportunities Studied .......................................................... 14

Appendix D: Management’s Comments ........................................................................... 20
    st
21 Century Post Office: Opportunities to Share                                                        DA-MA-12-003
 Excess Resources


Introduction

This report presents the results of our review to determine whether the U. S. Postal
Service can perform additional government transactions (Project Number
11YG026DA000). This is part of a series of reports addressing the 21st Century Post
Office. The U. S. Postal Service Office of Inspector General (OIG) reviewed excess
Post Office resources and likely synergies with other federal, state, and local
government entities. We also solicited the opinions of postmasters nationwide to gain
insight at the community level. This self-initiated review addresses strategic risk
associated with the changing demands for the 21st Century Post Office. See Appendix B
for additional information about this audit.

The Postal Service has experience with intergovernmental collaboration as it shares
space in federal buildings and conducts transactions for other federal entities.
Increasing this type of relationship could expand citizen access and bring greater
efficiencies to the Postal Service and federal, state, and municipal government
operations.

Conclusion

The Postal Service would benefit from sharing Post Office resources with other
government entities while generating revenue and reducing costs. Excess floor space
and potential labor resources could be used to perform transactions with other
government agencies, which could expand the reach of government departments to
citizens.

Surplus Post Office Resources Exist Nationwide

Post offices nationwide have surplus floor space, retail window, and workhour capacity
to perform additional government transactions. As mail volume has dropped 20 percent
from its peak in 2006, the floor space needed to provide postal services has also
decreased. In a recent audit, 1 we estimated excess facility space at 67 million square
feet (SF), or 24 percent of interior space. This excess space includes available retail
windows at many post offices across the nation. Our analysis of retail windows indicate
that 48,977 of 61,333 of them are staffed by clerks, resulting in 12,356 unmanned or
underused windows nationwide. Analysis also shows increasing terminal workhour 2
availability to perform additional tasks. In fiscal year (FY) 2011, post offices used more
than 20 million terminal workhours in excess of those needed for Post Office
transactions. We recognize the Postal Service’s need to optimize its network through
consolidations and closures. However, with declining federal department budgets,
management could use these underutilized resources to maintain or expand the reach
of government departments to citizens using post offices.


1
  Nationwide Facility Optimization (Report Number DA-AR-11-009, dated August 26, 2011).
2
  The hours that computer terminals are available at retail locations for customer service window and passport
transactions.

                                                          1
  st
21 Century Post Office: Opportunities to Share                                 DA-MA-12-003
 Excess Resources


The Postal Service currently provides a small number of non-postal government
services, such as accepting passport applications, offering Selective Service registration
forms, and renting excess space to other government agencies. Our review of a limited
number of federal, state, and municipal government entities highlights existing
electronic government (e-Gov) initiatives and places an emphasis on lowering costs and
expanding public access to government services.

Because of the Postal Service’s extensive presence in communities throughout the
nation, these initiatives could lead to mutually beneficial inter-governmental partnerships
between the Postal Service and other government entities. Providing government
services in Postal Service locations could save much needed resources, expand public
access to government, and provide revenue to the Postal Service.

Declining mail volume combined with increasing alternatives to window transactions has
contributed to the surplus capacity that post offices are experiencing. While the Postal
Service’s Vision 2013 includes a strategy to leverage strengths by building on the reach
and capability of the network, it does not expand its vision to take advantage of surplus
Post Office capacities to perform additional governmental services.

Postmasters nationwide support capitalizing on surplus resources. In an OIG survey of
90 postmasters, 74 (82 percent) believe the public would be willing to turn to the Postal
Service to transact other government business. This support bolsters the likelihood that
management in the field and management stakeholders would more broadly support
expanding its current non-postal service transactions as a means of using surplus
resources. See Appendix B for more detailed audit information.

Recommendation

To take advantage of surplus Post Office resources, we recommend the vice president,
Delivery and Post Office Operations and the vice president, Channel Access:

1. Develop and implement a strategy to share surplus Post Office resources with
   appropriate federal, state, and municipal government agencies.

Management’s Comments

Postal Service management agreed with our recommendation to develop and
implement a strategy to share surplus Postal Service resources with appropriate federal
agencies. However, management did not agree with part of the recommendation to
share Postal Service resources with state and municipal agencies. Specifically,
management disagreed with the implied finding that the Postal Service has legal
authority to offer government services to state and municipal agencies. Pending
legislation in the Senate, S .1789, would provide this authority that the Postal Service
supports.




                                                 2
     st
21 Century Post Office: Opportunities to Share                                              DA-MA-12-003
 Excess Resources


Management did not agree that the amount of vacant space in Postal Service facilities
is 67 million SF or 24 percent of interior space. Specifically, they disagreed with the
excess space calculation from a prior OIG report 3 and that this space is readily suited to
accommodate self-service government services kiosks.

Finally, management disagreed that 20 million excess terminal workhours identified in
the report could be used to provide or assist government services. The Postal Service
contends that excess terminal workhours did not measure the availability of labor
resources but rather the amount of time that terminals are not in use. Also, they contend
that the metric for measuring labor hours is Window Service, Labor Distribution Code
(LDC) 45 for employees doing clerk/window functions.

The Postal Service asserts that it is already offering services in retail locations to other
federal agencies to facilitate their e-Gov initiatives. Additionally, the Postal Service will
develop and implement a strategy for providing services to state and municipal
agencies once it has the statutory authority. See Appendix D for management
comments in their entirety.

According to subsequent correspondence regarding a target implementation date from
management, the Postal Service will continue to offer services in retail locations to other
federal agencies through FY 2012.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation, and
corrective actions should resolve the issues identified in the report.

Management disagreed with the part of our recommendation to share Postal Service
resources with state and municipal agencies. Consequently, we propose that the Postal
Service wait until Congress passes legislation, which would provide this authority,
before taking any actions concerning non-federal agencies. It was not our intention to
imply that the Postal Service has legal authority to offer government services to state
and municipal agencies.

Management also disagreed with the excess space calculation from a prior OIG report
and questioned whether this space was readily suited to accommodate self-service
government services kiosks. According to the prior report, we did not determine whether
the excess space identified was usable, in part because Postal Service systems do not
identify usable areas. Postal Service realty management policies and systems should
be updated to define usable areas. Therefore, we relied on private industry standards in
defining usable space as within the interior walls. Of the excess space identified, there
is potential usable space that is accessible to the public. According to commercial realty
standards, 4 usable areas are generally measured from inside the permanent walls to
the middle of partitions and our calculations reflect these standards.

3
    Nationwide Facility Optimization (Report Number DA-AR-11-009, dated August 26, 2011).
4
    Building Owners and Management Association Standards, www.boma.org.

                                                         3
     st
21 Century Post Office: Opportunities to Share                                DA-MA-12-003
 Excess Resources



Finally, Postal Service management disagreed with the number of excess terminal
hours used in the report and contended that excess terminal hours did not measure the
availability of labor resources, but rather the amount of time that terminals are not in
use. They also contended that the metric for measuring labor hours is LDC 45 for
employees doing clerk/window functions.

To support the number of excess terminal hours used in the report, we used the Postal
Service’s Retail Data Mart report titled, Window Operations Survey (WOS) - Earned
Actual/Staffing. The Postal Service asserts excess terminal hours do not measure the
availability of labor resources but rather the amount of time a terminal is not in use.
Research revealed that excess terminal hours are defined as the difference between
earned resources and actual resources, exclusively at the retail counter.

We opted to use terminal hours over LDC 45 hours, because LDC 45 hours only include
clerks that work the window at larger sized facilities. Postmasters and LDC 47 5 clerks
work the retail window, but their hours are not accounted for in LDC 45. Postmasters at
level 18 and below offices (which is 79 percent of all postmasters) are required to
perform craft work. Additionally clerks at smaller offices do not use LDC 45, their hours
go into LDC 47. We decided to use excess terminal hours in lieu of using strictly LDC 45
hours to better reflect the excess resources associated with all employee types who
work the retail window. Excess terminal hours indicate potential labor resources
available to perform additional government transactions.

The OIG considers this recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique Colter, director,
Facilities, Environmental, and Sustainability, or me at 703-248-2100.




5
    LDC 47 – All non-supervisory hours used in customer service activities.

                                                            4
    st
21 Century Post Office: Opportunities to Share                                                           DA-MA-12-003
 Excess Resources



                                  Appendix A: Additional Information

Background

Collaborating With Other Government Agencies

Congress has long viewed the Postal Service as the federal government agency that
the public sees most frequently, and it has supported cooperation between the Postal
Service and other government entities. Accordingly, the Postal Service cooperates with
some federal agencies by providing facilities and non-postal services if it reduces
overall costs to the government and there is no interference with postal operations. For
example, the Postal Service currently has interagency agreements to provide
non-postal government services, such as accepting passport applications, offering
Selective Service registration forms, and renting excess space to other government
agencies. 6 In addition, the Postal Service also has experience in colocating functions
with other government entities. Specifically, the Mansfield, OH, federal building hosts a
Post Office and U.S. Social Security Administration (SSA), Internal Revenue Service
(IRS), and U.S. Department of Labor offices.

e-Government

The e-Gov Act of 2002 7 promotes e-Gov services and processes by establishing a
broad framework of measures that require using Internet-based information technology
to enhance citizens’ access to government information and services, among other
purposes. e-Gov provides the Postal Service with an opportunity to use its existing
broadband reach to host Internet technologies, such as kiosks or window access
terminals.

Civilian Property Realignment Act (CPRA)

CPRA is a proposed bill 8 to reduce the operating and maintenance costs of federal
civilian real properties through the disposal of unneeded properties and realignment of
other real properties by consolidating, colocating, and reconfiguring space; and through
the realization of other operational efficiencies. A Board 9 will recommend co-locations,
and any co-locations involving Postal Service property will include a minimum 5-year
lease.




6
  The Postal Service is lessor to the U.S. General Services Administration (GSA) on 105 leases as of September
2011.
7
  Public Law 107-347.
8
  H.R. 1734.
9
  The CPRA establishes a Board as an independent entity of the federal government. The Board shall identify
opportunities for the federal government to significantly reduce its inventory of federal civilian real property and
opportunities for federal civilian property to colocate into Postal Service property, as applicable.

                                                           5
    st
21 Century Post Office: Opportunities to Share                                      DA-MA-12-003
 Excess Resources



Objective, Scope, and Methodology

Our objective was to assess opportunities for post offices to perform transactions for
other government entities. To answer our objective, we researched:

        The existence and availability of Post Office resources, specifically, excess floor
         space, retail windows, and excess terminal workhours.

        Federal, state, and local government entities that could provide mutually beneficial
         synergy and services that the Postal Service’s customer base is most likely to need.

In addition, at the 2011 Annual Conference of the National League of Postmasters, we
surveyed postmasters representing every region of the country to gain insight on the
viability of prospective partnerships at the community level. Ninety of the postmasters
attending responded to our survey.

We conducted this review from April 2011 through January 2012 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on November 21 and 29, 2011, and included their comments where
appropriate. We did not assess the reliability of Postal Service system data used.

Prior Audit Coverage

We did not identify any prior work that directly relates to the review's objectives.




                                                 6
     st
21 Century Post Office: Opportunities to Share                                                  DA-MA-12-003
 Excess Resources


                                Appendix B: Detailed Information
Surplus Post Office Resources Exist Nationwide
Floor Space
As mail volume has dropped 20 percent from its peak in 2006, the space needed to
provide postal services has also decreased. In August 2011, we reported that excess
facility space was about 67 million SF, or 24 percent of interior space. This estimate
includes excess space at post offices and stations that are conducive to kiosk
placement. In addition, secure space is available to satisfy additional floor space
requirements. The GSA leases more than 9,000 properties for federal agencies at an
annual cost of about $5 billion. In numerous facility optimization area office audits, 10 we
reported that post offices are near many of these properties. Sharing Post Office space
with federal entities has the potential to lower overall federal lease costs.
Retail Windows
We also analyzed retail operations to assess the diminishing demand at the retail
window. We compared the number of physical windows to the number of windows
needed to conduct window transactions 11 at post offices. Our analysis shows the
Postal Service can readily provide transactional space to other government entities.
Nationally, the Postal Service has 61,333 retail windows; however, only 48,977 of these
were staffed by window clerks. The remaining 12,356 retail windows are either
unmanned or underused. Chart 1 depicts the supply vs. demand of retail window
stations by Postal Service area offices as of July 2011.
          Chart 1: Area Office Supply vs. Demand of Retail Window Stations




          Capital Metro    Eastern     Great Lakes   Northeast        Pacific   Southwest      Western




10
   Facility Optimization: Pacific Area Districts (Report Number DA-AR-11-006, dated May 13, 2011); Facility
Optimization: Former Southeast Area Districts (Report Number DA-AR-11-007, dated May 13, 2011); Facility
Optimization: Great Lakes Area (Report Number DA-AR-11-005, dated April 22, 2011); Facility Optimization:
Southwest Area (Report Number DA-AR-11-003, dated March 1, 2011); Facility Optimization: Capital Metro Area
(Report Number DA-AR-11-004 dated, February 25, 2011); Facility Optimization: Eastern Area (Report Number DA-
AR-11-002, dated February 11, 2011); and Facility Optimization: Western Area (Report Number DA-AR-11-001,
dated February 7, 2011).
 11
    Earned retail windows are based on the number of transactions conducted at each facility.

                                                      7
     st
21 Century Post Office: Opportunities to Share                                                          DA-MA-12-003
 Excess Resources


To further evaluate demand at retail windows, we looked at the decrease in retail visits
since FY 2009. As depicted in Chart 2, the Postal Service has experienced more than a
4-percent decline in window visits each year since FY 2009.

                          Chart 2: Retail Window Visits FYs 2009 - 2011




The declining trend for Post Office transactions means that additional physical windows
would potentially increase over time.

Terminal Workhours

We further analyzed terminal workhours to assess the availability of resources to
conduct or witness other government transactions. In FY 2011, according to the WOS
Earned/Actual Staffing Report, post offices used more than 20 million terminal
workhours in excess of the hours needed to complete transactions. 12 Excess hours
have increased since FY 2009, indicating the Postal Service has an oversupply of
terminal workhours it could use to conduct other government transactions.

                    Table 1: Excess Terminal Workhours FYs 2009 - 2011 13
                                          Actual             Earned
                                                                           Excess Terminal
                           FY            Terminal           Terminal
                                                                             Workhours
                                        Workhours          Workhours
                       2009               52,000,247       46,580,214               5,420,033
                       2010               58,116,182       43,906,885              14,209,297
                       2011               60,045,817       40,004,943              20,040,874

While the opportunity for using terminal hours exists, Postal Service employees would
need training before they could provide certain services. For example, Postal Service
12
   Post offices earn terminal workhours hours based on the standard time for transactions that occur at the retail
window.
13
   Source: Retail Data Mart, WOS, Earned Actual Staffing Report.

                                                           8
    st
21 Century Post Office: Opportunities to Share                                           DA-MA-12-003
 Excess Resources


employees currently receive online training for conducting passport services.
Employees could use this training for other services as well, minimizing training
expenses.

The Postal Service Could Service Government Entities

Our review included five federal, two state, and two municipal government agencies.
We selected the following agencies for review to assess potential synergies for mutually
beneficial partnerships.

                            Table 2: Government Agencies Reviewed
                                          Federal Agencies
SSA                                                IRS
U.S. Department of Veterans Affairs (VA)           U.S. Small Business Administration (SBA)
Federal Emergency Management Agency
(FEMA)
                                     State and District Agencies
Maryland Motor Vehicle Administration (MVA)        District of Columbia Department of Motor Vehicles
                                                   (DMV)
                                           Local Agencies
Fairfax Water Authority                            City of Baltimore Bureau of Revenue Collections

Each of the agencies selected offers services the Post Office could deliver through
either a kiosk or a computer terminal since:

        The five federal agencies all have ongoing e-Gov initiatives.

        The two state/district agencies offer services through kiosks or computer terminals in
         their branch offices.

        The two local agencies offer online bill payment options.

See Appendix C for specific details on each governmental entity studied.

Postmasters Support Marketing Surplus Post Office Resources

Survey Results

Postmasters have firsthand knowledge of the demographic and social aspects of their
communities. We surveyed 90 postmasters nationwide to obtain their feedback on the
feasibility of offering non-postal government services in their respective communities.
They also provided specific feedback on which services their communities need most.

Of the 90 postmasters completing surveys, 87 (97 percent) were willing to be trained to
offer additional governmental services, and 74 of the 90 (82 percent) believed
customers would be willing to use a kiosk to access other government services in
Post Office lobbies.


                                                  9
     st
21 Century Post Office: Opportunities to Share                                                       DA-MA-12-003
 Excess Resources


Only eight participants did not believe their customers would be willing to use kiosks.
Their reasons fell into two categories: 14

         The education level in the communities make it unlikely that customers would be
          willing to use the technology. One participant estimated that only 25 percent of
          people in the community had access to a computer, or Internet service at home.

         The post offices were located in rural areas that would need satellite Internet
          service to connect the kiosk.

More than 50 percent of survey participants expressed community interest in the
services the government agencies listed in Table 3 provide.

                                 Table 3: Government Entities Cited
                                                            Number of
                          Government Entity                                      Percentage
                                                           Respondents
                    SSA                                              75              83%
                    State government services                        59              66%
                    VA                                               56              62%
                    IRS                                              50              56%
                    Local government services                        49              54%

Thus, our survey shows that postmasters nationwide agree it is operationally feasible
for post offices to offer non-postal government services in their respective communities
to expand public access.

Financing Options

Except as provided by law, it is Postal Service policy to charge compensatory fees for
services performed on behalf of other agencies when these services involve significant
ongoing costs to the Postal Service. 15 For example, through its interagency agreement
with the U.S. Department of State, the Postal Service collects an acceptance fee for
each passport application it processes in a Post Office. While the Department of State
sets the passport application fee, 16 mutual agreement between the Postal Service and
the Department of State determines the acceptance fee. For FYs 2009 through 2011,
the Postal Service received an average in excess of $210 million in revenue for
rendering passport services. There were 7.3 million and 6.8 million passport
applications submitted in post offices in FYs 2009 and 2010, respectively. Customers
were generally charged $25 for processing passport applications; however, additional
fees were charged for passport photos and expedited applications. The Postal Service
could potentially gain greater revenue than realized by processing passport applications
if it negotiated similar arrangements with state MVAs, which charge application and
renewal fees for driver’s licenses and vehicle registrations.

14
   Eight postmasters do not believe customers would use kiosks, and another eight did not respond to the question.
15
   Administrative Support Manual Issue 13, Section 421.12, Fees, published July 1999, updated through
January 2011.
16
   The fee is set with legislative approval.

                                                         10
  st
21 Century Post Office: Opportunities to Share                                 DA-MA-12-003
 Excess Resources



The cost of placing a kiosk or computer access terminal in a Post Office lobby will
consist of the cost of the hardware, the cost of maintaining and servicing the hardware,
and the value of the space needed for placement. The Postal Service could cover these
costs by (1) leasing the needed square footage to a participating partner; or (2)
collecting revenue on a consignment basis, where it collects either a convenience fee or
a transaction fee. If Postal Service employees provide additional services related to
online access transactions, management should also consider the costs for labor,
marketing, and training.

Office visits and the expected kiosk or computer terminal usage will vary significantly,
depending on the size of the community served by the Post Office and the distance
between the postal facility and the nearest partner entity. These factors will be important
when negotiating a compensation arrangement with the partner government entity. In
smaller post offices, with low expected traffic, a space lease arrangement might be
more prudent. Post offices in high-traffic or urban areas might be more suited to the
convenience fee model.

21st Century Post Office Scenarios

The following example presents a contrasting view of a 21st Century Post Office through
the eyes of a customer. In both scenarios, a disabled veteran, just home from
Afghanistan, lost his wallet and needs to secure a new driver’s license and Social
Security card to apply for veterans benefits. Additionally, he is unemployed and has a
good idea for starting a small business. He resides in southeast Washington, DC.




                                                 11
  st
21 Century Post Office: Opportunities to Share                                   DA-MA-12-003
 Excess Resources


Scenario 1 - The Status Quo

In Scenario 1, this veteran has to walk and make multiple transfers on public
transportation to his local Social Security Office, traveling about 1 hour. He completes
an application for a Social Security Card (Form SS-5), presents his military identification
card, which is an acceptable form of proof for both citizenship and identity, and then the
clerk verifies the identifying documents. The clerk processes the application and tells
the veteran that a replacement card will be mailed to his address within the standard
10 business days. He then returns home and awaits the arrival of his Social Security
card. The entire trip to and from the social security office and the time spent processing
his application takes about 3 hours, and he spent about $6.20 in traveling expenses.

Upon receipt of his Social Security card, the veteran goes to the DMV to obtain a
duplicate driver’s license. Again, the veteran has to walk and make multiple transfers on
public transportation to get to his local DMV service location, traveling about 1 hour.
This location is very crowded with a line of people outside, so he waits about 35 minutes
to get inside. Once inside, he waits in another line to get a customer assistance number
and fills out the required form. A clerk verifies his identity, and then he pays the fee with
his credit/debit card. When the clerk calls the veteran’s customer assistance number,
the veteran proceeds to the next available window and receives a duplicate driver’s
license immediately.

Next, he goes to the VA to obtain his current health and benefits information. Again, the
veteran has to walk and make multiple transfers on public transportation to his local Vet
Center, traveling about 1 hour. While there, he is able to access and update his current
health and benefits information, taking about 45 minutes. Now, he needs to go to his
local SBA district office to get information. He walks and takes public transportation to
the SBA district office, traveling another 15 minutes. He speaks with a clerk who
recommends a couple of programs for which he might be eligible, taking about 45
minutes. Finally, his trip home takes another 30 minutes. The entire trip to and from the
DMV, Vet Center, and SBA district office and the time spent waiting in lines and
conducting business has taken about 7 hours. The cost is about $8.20 in travel
expenses.




                                                 12
  st
21 Century Post Office: Opportunities to Share                                  DA-MA-12-003
 Excess Resources



Scenario 2 - Government Service Center

 In Scenario 2, the same veteran returns home and is lucky enough to live in a
 community where his local Post Office has a government service center that offers
 many government services via a computer terminal/kiosk that is linked to the SSA,
 DMV, VA, and the SBA.

 He walks and catches one bus to the Post Office, traveling about 20 minutes to get
 there. He sits at the computer terminal, logs onto the SSA’s website, and completes
 an application for a Social Security Card (Form SS-5). He then has a Postal Service
 clerk verify his identity. The clerk inputs a code letting SSA know that she is
 authorized to verify the identifying documents. Next, the clerk prints and mails the
 application to the closest SSA office, and a replacement card is mailed to the veteran
 within the standard 10 business days.

 Because the terminal is also linked to the SBA, the veteran navigates to the SBA’s
 website and searches for financing options for the small business he wants to start.
 He identifies the criteria that applies and searches business loans, grants, and
 alternative financing options. The search returns 16 loan programs, three seed and
 venture capital options, and seven grants. He prints the information to review at his
 leisure.

 Upon receipt of his Social Security card, the veteran returns to the Post Office and
 logs onto the computer terminal to obtain a duplicate driver’s license from the DMV’s
 website. He fills out all the required fields. The clerk verifies his identity because the
 veteran does not know his previous driver’s license number. The veteran pays the fee
 with his credit/debit card and reviews the information for accuracy, and then prints the
 confirmation page. He will receive his driver’s license in the mail within 10 days. Next,
 he logs onto the VA’s MyHealtheVet portal, so he can access his current health and
 benefits information. He was able to handle all of his business within 1 hour instead of
 1 to 2 days, which included taking public transportation to and from several different
 agencies. His transportation costs have been minimized as well.




                                                 13
     st
21 Century Post Office: Opportunities to Share                                                               DA-MA-12-003
 Excess Resources


                        Appendix C: Governmental Opportunities Studied

Social Security Administration

The SSA is facing a tremendous workload as it begins to deal with the 80 million baby
boomers expected to retire over the next 20 years. Notably, the Government
Accountability Office has issued several reports emphasizing the need for the SSA to
undertake plans to improve its delivery of services to the public.

SSA has only 1,300 field offices to service the entire nation. In anticipation of the
expected increased workload, the SSA began several e-Gov initiatives. Some of these
initiatives are compatible with the public service functions of the Postal Service and
could be administered at Postal Service facilities. For example, SSA's Capital Asset
Plan and Business Case Summaries 17 detail the following plans:

Citizen Access Routing Enterprise (CARE through 2020)

CARE through 2020 is a services contract that provides a call center network solution
and a national 800 number network. It will provide interactive voice response
automation and call center agent services via SSA's national toll-free number. CARE
through 2020 is an Internet protocol-based network designed for future initiatives such
as Web Callback, "Click to Talk," 18 Web collaboration, and Web Chat, providing the
public with additional methods for communicating with SSA.

Ready Retirement

Ready Retirement is a multifaceted online system for retirement related information and
services. This program uses public education, simplified enrollment, and streamlined
adjudication to make the retirement application process more efficient. The public
education aspect offers new tools that encourage the public to consider their savings,
other income, life expectancy, and health insurance needs when deciding when to take
benefits. Simplified enrollment involves simplifying the retirement claims process and
streamlining the adjudication process, which improves efficiency by introducing
additional online services that require less human intervention.

By providing access to these systems in post offices throughout the country, the SSA
could greatly expand its public access. The Postal Service could also increase traffic to
host locations and, in turn, increase the number of potential customers for some of its
services.




17
   Capital Asset Plan and Business Case Summaries are documents that establish policy for planning, budgeting,
acquisition, and management of federal capital assets.
18
   SSA is piloting a video service delivery project in its field offices that will enable staff to interview customers in
remote locations via video equipment.

                                                             14
     st
21 Century Post Office: Opportunities to Share                                                         DA-MA-12-003
 Excess Resources



Internal Revenue Service

The IRS provides taxpayers the option of obtaining personal, face-to-face tax
assistance at 401 taxpayer assistance centers (TACs) nationwide. The IRS
acknowledges that the locations of most TACs have not changed significantly since
FY 2000 and that it has not kept pace with shifts in population and demographics.
Currently, 35 percent of the U.S. population does not live within 30 minutes of a TAC.
This represents more than 100 million taxpayers who do not have convenient access to
a TAC.

In a recent audit, the U.S. Department of Treasury Inspector General for Tax
Administration recommended that the IRS identify opportunities to better align the TACs
with taxpayer needs and complete the evaluative process in the Geographic Footprint
Initiative. 19 This would include a cost-benefit analysis, return-on-investment analysis,
taxpayer impact assessment, stakeholder input, and communication plan. The IRS
responded that it plans to work to identify opportunities to better align the TACs with
taxpayer needs on a case-by-case basis, as leases expire and or events occur that
require unplanned relocations.

The IRS also stated that partnering with the Postal Service is an option worth exploring.
The IRS noted that the advantages of partnering with the Postal Service included
sharing space at locations well known to the majority of local populations plus having a
relatively secure building space. With the availability of wireless laptops now used by
TAC assistors in volunteer program sites, this option is more feasible than it was before
the existence of this technology.

Partnering with the Postal Service presents an opportunity for the IRS to establish a
presence in underserved communities throughout the nation. Subleasing underused
windows at post offices or training window clerks to provide certain types of assistance
could be a mutually beneficial opportunity.

U.S. Department of Veterans Affairs

The VA provides a wide range of benefits including, disability, education and training,
vocational rehabilitation and employment, home loan guaranty, dependant and survivor
benefits, medical treatment, life insurance and burial benefits. The VA began several e-
Gov initiatives, some of which are compatible with the public service functions of the
Postal Service and could be implemented at Postal Service facilities.




19
  The IRS developed the Geographic Footprint Initiatives to identify opportunities to better align taxpayer needs with
resource allocations using demographic variables to determine the optimal placement of the TACs.

                                                          15
     st
21 Century Post Office: Opportunities to Share                                    DA-MA-12-003
 Excess Resources


For example, the VA has implemented the following initiatives:

eBenefits

The President's Commission on Care for America's Returning Wounded Warriors was
established by Executive Order 13426 in March 2007. The Executive Order
recommended the creation of a My eBenefits (also known as eBenefits) web portal.
The portal serves wounded, injured, and ill service members, veterans, their families,
and their caregivers. It provides a single sign-on, central access point to online benefits
and related services. True to its mission, the eBenefits portal is a one-stop shop for
benefits-related online tools and information.

My HealtheVet

My HealtheVet is the VA’s next-generation health information system, designed to
support more personalized care for veterans, more sophisticated clinical tools for
doctors and nurses, and more advanced communication with health care partners. My
HealtheVet builds on decades of VA expertise in health care information technology to
support the strategic goals of the department, meet interagency obligations, take
advantage of new developments in technology to address weaknesses in the current
system, and, most importantly, improve the safety and quality of health care for
veterans. My HealtheVet is the VA’s award–winning e–health website, offering veterans,
active duty soldiers, and their dependents and caregivers ‘anywhere, anytime’ Internet
access to VA health care information and services. Launched nationwide in 2003, My
HealtheVet is a free, online personal health record that empowers veterans to become
informed partners in their health care. With My HealtheVet, America’s veterans can
access trusted, secure, and current health and benefits information and record and
store important health and military history information at their convenience.

These examples present the Postal Service with additional opportunities to increase
traffic and to partner with the VA to establish a presence in underserved communities
throughout the nation. Subleasing underused windows or other space at post offices for
online access or training window clerks to provide certain types of assistance could be a
mutually beneficial opportunity.

Federal Emergency Management Agency

FEMA has 7,474 20 employees across the country helping citizens and first responders
to ensure that the nation works together to build, sustain, and improve the capability to
prepare for, protect against, respond to, recover from, and mitigate all hazards.
Employees work at FEMA Headquarters, the 10 regional offices, the National
Emergency Training Center, the Center for Domestic Preparedness/Noble Training
Center, and other locations to support the larger emergency management team. FEMA
teams with federal partners; state, tribal and local officials; the private sector; non-profits
and faith-based groups; and the general public.
20
     As of October 8, 2011.

                                                 16
     st
21 Century Post Office: Opportunities to Share                                                DA-MA-12-003
 Excess Resources



FEMA also began several e-Gov initiatives. Some of these initiatives are compatible
with the public service functions of the Postal Service and could be implemented at
Postal Service facilities. For example, FEMA has implemented the following:

Achieving Data Interoperability with Emergency Data eXchange Language (EDXL)

EDXL is a set of technical rules governing how incident related information should be
packaged for exchange. The development and adoption of EDXL messaging standards
will allow people to seamlessly share and use information about incidents. A call center,
or kiosk located in a Post Office could connect customers to this messaging system.

Mitigation eGrants System

FEMA developed the Mitigation eGrants system to meet the intent of the e-Gov
initiative. 21 FEMA's Mitigation eGrants system reduces the time and paperwork involved
in the application process and, at full development, will manage the grant process
through the entire grant lifecycle, from submission of an application to grant closeout.

This presents the Postal Service with another opportunity to increase traffic and to
partner with FEMA to establish a presence in underserved communities throughout the
nation. Subleasing underused windows at post offices or training window clerks to
provide certain types of assistance could be a mutually beneficial opportunity.

U.S. Small Business Administration

Since its founding on July 30, 1953, the SBA has delivered millions of loans, loan
guarantees, contracts, counseling sessions, and other forms of assistance to small
businesses. SBA also has several e-Gov initiatives. Our review shows that some of
these initiatives are compatible with the public service functions of post offices and
could be implemented at Postal Service facilities. For example, the SBA has
implemented the following:

E-Tran

E-Tran is an SBA loan guaranty origination/servicing solution that leverages Internet
technology to reduce the turnaround time on loan guaranty requests. E-Tran is
integrated into SBA software products and enables customers to submit electronically
and provides increased efficiency for loan guaranty origination and servicing processes.

Historically Underutilized Business Zones (HUBZone)

HUBZone was enacted into law as part of the Small Business Reauthorization Act of
1997. The program encourages economic development in HUBZones through the

21
 Authorized by Public Law 106-107, the Federal Financial Assistance Management Improvement Act, passed on
November 20, 1999.

                                                     17
  st
21 Century Post Office: Opportunities to Share                                  DA-MA-12-003
 Excess Resources


establishment of preferences. The HUBZone program promotes economic development
and employment growth in distressed areas by providing access, including electronic
access, to more federal contracting opportunities.

Subleasing space for self-service kiosks, underused windows at post offices for
customer outreach, or training window clerks to provide certain types of assistance
could be mutually beneficial to the SBA and post offices.

District of Columbia DMV

The DMV develops, administers, and enforces the vehicular laws of the district with an
emphasis on driver education and driver safety. Other district agencies work with the
DMV to make the city a clean, safe, and efficient area for transportation. The mission of
the DMV is to provide excellent customer service and to promote public safety by
ensuring the safe operation of motor vehicles. Our review shows that post offices can
host some e-Gov initiatives. For example:

DMVs Website

The DMV’s website is part of the district's e-Gov initiative putting government
documents and services online, thereby making them more accessible and convenient.
The DMV's goal is to design a service delivery system that recognizes the value of the
customer's time. The DMV recommend that customers should check the DMV’s website
for forms and documents before visiting a service location. In some cases, the website
allows customers to ‘skip the trip’ to the service locations by completing some
transactions online.

Registration Renewals

The DMV currently processes approximately 150,000 vehicle registrations annually,
with 60 percent of those conducted in person. However, with the availability of online
and mail services, it is not necessary for customers to register their vehicle in person.

Post Offices have the space and window resources available that could host either a
kiosk or a computer to allow customers access to these online DMV services.




                                                 18
  st
21 Century Post Office: Opportunities to Share                                  DA-MA-12-003
 Excess Resources


Maryland MVA

The Maryland MVA provides driver and vehicle services that promote Maryland's
mobility and safety. To reduce congestion at all branch offices, the MVA offers
alternative access to driver and vehicle services through self-service kiosks and the
Internet. The MVA's newest generation of self-service kiosks are convenient, accept
cash or credit payments, and are able to transact and print renewal stickers. If these
kiosks are colocated in post offices, customers can conveniently complete MVA
transactions and mail any required documentation in one spot.

Fairfax Water Authority

The Fairfax Water Authority is the largest drinking water utility in Virginia, serving more
than 1.5 million customers and calculates both water and sewer charges on a quarterly
basis. Post offices could provide access to the utility’s online bill payment system and
payment services.

City of Baltimore Bureau of Revenue Collections

The City of Baltimore Bureau of Revenue Collections allows customers to pay for many
services online using either a credit card or a checking account. Services include alarm
and property registration, metered water, and traffic citations. Customers can make
online payments 24 hours a day, 7 days a week via credit card with a convenience fee.
Customers without online access at home could use digital resources at post offices at
minimal cost.




                                                 19
  st
21 Century Post Office: Opportunities to Share                 DA-MA-12-003
 Excess Resources


                           Appendix D: Management’s Comments




                                                 20
  st
21 Century Post Office: Opportunities to Share        DA-MA-12-003
 Excess Resources




                                                 21
  st
21 Century Post Office: Opportunities to Share        DA-MA-12-003
 Excess Resources




                                                 22
